<html>
<title> - [H.A.S.C. No. 116-71] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2021 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED SIXTEENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                     
 
                         [H.A.S.C. No. 116-71]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2021

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                SUBCOMMITTEE ON STRATEGIC FORCES HEARING

                                   ON

                    FISCAL YEAR 2021 BUDGET REQUEST

        FOR NUCLEAR FORCES AND ATOMIC ENERGY DEFENSE ACTIVITIES

                               __________

                              HEARING HELD
                             MARCH 3, 2020


                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                           ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
41-409               WASHINGTON : 2021 
 

                                     
  


                    SUBCOMMITTEE ON STRATEGIC FORCES

                    JIM COOPER, Tennessee, Chairman

SUSAN A. DAVIS, California           MICHAEL R. TURNER, Ohio
RICK LARSEN, Washington              JOE WILSON, South Carolina
JOHN GARAMENDI, California           ROB BISHOP, Utah
JACKIE SPEIER, California            MIKE ROGERS, Alabama
SETH MOULTON, Massachusetts          MO BROOKS, Alabama
SALUD O. CARBAJAL, California        BRADLEY BYRNE, Alabama
RO KHANNA, California                SCOTT DesJARLAIS, Tennessee
WILLIAM R. KEATING, Massachusetts    LIZ CHENEY, Wyoming
KENDRA S. HORN, Oklahoma, Vice 
    Chair
               Grant Schneider, Professional Staff Member
                Sarah Mineiro, Professional Staff Member
                           Zach Taylor, Clerk
                           
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Cooper, Hon. Jim, a Representative from Tennessee, Chairman, 
  Subcommittee on Strategic Forces...............................     1
Turner, Hon. Michael R., a Representative from Ohio, Ranking 
  Member, Subcommittee on Strategic Forces.......................     1

                               WITNESSES

Bawden, Allison B., Director, Natural Resources and Environment 
  Team, Government Accountability Office.........................    10
Clark, Lt Gen Richard M., USAF, Deputy Chief of Staff for 
  Strategic Deterrence and Nuclear Integration, Department of the 
  Air Force......................................................     8
Gordon-Hagerty, Hon. Lisa E., Administrator, National Nuclear 
  Security Administration........................................     3
Mercado, Victorino G., Performing the Duties of Assistant 
  Secretary of Defense for Strategy, Plans, and Capabilities, 
  U.S. Department of Defense.....................................     5
Wolfe, VADM Johnny R., Jr., USN, Director, Strategic Systems 
  Programs, Department of the Navy...............................     6

                                APPENDIX

Prepared Statements:

    Bawden, Allison B............................................    86
    Clark, Lt Gen Richard M......................................    76
    Cooper, Hon. Jim.............................................    31
    Gordon-Hagerty, Hon. Lisa E..................................    32
    Mercado, Victorino G.........................................    49
    Wolfe, VADM Johnny R., Jr....................................    64

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
    
 FISCAL YEAR 2021 BUDGET REQUEST FOR NUCLEAR FORCES AND ATOMIC ENERGY 
                           DEFENSE ACTIVITIES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                            Washington, DC, Tuesday, March 3, 2020.
    The subcommittee met, pursuant to call, at 2:29 p.m., in 
room 2212, Rayburn House Office Building, Hon. Jim Cooper 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. JIM COOPER, A REPRESENTATIVE FROM 
     TENNESSEE, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Cooper. The subcommittee will come to order.
    We would like to welcome the distinguished guest witnesses 
we have today: The Honorable Lisa Gordon-Hagerty; Victorino 
Mercado, Performing the Duties of Assistant Secretary of 
Defense--that has to be the longest title I have ever seen; 
Vice Admiral Johnny Wolfe; Lieutenant General Richard Clark; 
and Allison Bawden of the GAO [Government Accountability 
Office].
    This subcommittee hearing has to be on one of the most 
important, most complicated topics of any subcommittee hearing. 
So I hope that all members will try to stick to the 5-minute 
rule so that we can have plenty of time in closed session 
following the public hearing. I am planning on deferring my 
time to the closed session.
    As I mentioned in last week's subcommittee hearing, the 
main issues seem to be budgetary, and we have that high-class 
problem of unexpected largesse from the administration, a 
nearly $3 billion increase for NNSA [National Nuclear Security 
Administration] over fiscal year 2020. Although we appreciate 
the nearly 20 percent increase, the burden of proof is on the 
Administrator to justify the amounts, particularly in view of 
the NNSA's $8 billion in uncosted funds.
    Now let me recognize the ranking member for his opening 
statement.
    [The prepared statement of Mr. Cooper can be found in the 
Appendix on page 31.]

  STATEMENT OF HON. MICHAEL R. TURNER, A REPRESENTATIVE FROM 
     OHIO, RANKING MEMBER, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Turner. Thank you, Mr. Chairman. I would also like 
extend a warm welcome to all of our witnesses today. We do have 
a very large panel, but you all contribute to our work here on 
the House Armed Services Committee in unique and meaningful 
ways, and I appreciate your expertise that you bring to the 
table.
    The budget request for the entire nuclear enterprise across 
both the Department of Energy [DOE] and the Department of 
Defense [DOD] for fiscal year 2021 is approximately $49 
billion. This request includes consistent predicted cost growth 
for nuclear modernization programs within the DOD, nuclear 
weapons stockpile surveillance within the DOE, and the nuclear 
command and control systems across the government.
    As we have continued to hear from DOD leadership, 
supporting our nuclear modernization efforts remains the number 
one priority of the Department of Defense. In partnership with 
the National Nuclear Security Administration, the United States 
will continue to provide a safe, secure, and reliable nuclear 
deterrent.
    The DOD budget request for fiscal year 2021 invests 
approximately $17.7 billion to support modernization of all 
three legs of the nuclear triad. This year's budget request for 
the Ground Based Strategic Deterrent is $1.5 billion. That 
money will ensure that the replacement for our only ground-
based intercontinental ballistic system, which has seen 
continuous service for 60 years, will be able to enter its next 
phase of use and development.
    There is no margin for slip in this program. We must 
continue to support it while ensuring the best value for our 
government. The budget request also supports the B-21 bomber at 
$2.18 billion and Long Range Standoff weapon, LRSO, at $744 
million. The LRSO is meant to replace our aging air-launched 
cruise missile, which entered service 40 years ago.
    This year's budget request supports the Navy's strategic 
deterrence requirements with the Columbia-class submarine, the 
Trident D5 modernization, and the initiation of the work for 
the Mark 7 reentry vehicle, which will receive the W93 warhead.
    The National Nuclear Security Administration also has a 
robust and necessary $19.7 billion budget request for fiscal 
year 2021. That includes $15.6 billion in their weapons 
activities programs to support the life extension and 
modifications to existing warheads, stockpile surveillance, and 
investment in strategic materials like plutonium and uranium 
enrichment.
    NNSA is an essential partner in the nuclear enterprise, and 
while we have started to improve upon the decrepit 
infrastructure, we have a long way to go. Additionally, the W93 
is a critical program of record to the NNSA. I look forward to 
today's testimony on the requirements and path ahead for this 
warhead.
    Last week we heard from Admiral Richard, the commander of 
Strategic Command, about the military requirements for nuclear 
modernization and the consequences of delay or failure. I 
appreciate his candidness when he said that we are approaching 
irreversible points of no return with regard to our nuclear 
modernization. He testified that we are approaching a point 
where, if we do not support these nuclear modernization 
efforts, that we will be starting down a path of unilateral 
nuclear disarmament.
    While we debate whether or not we will support the budget 
request for nuclear modernization of our existing stockpile, 
Russia and China continue to increase their nuclear arsenals at 
an alarming rate. Russia continues to increase the number and 
type of nuclear delivery systems, and specifically, they will 
continue to develop and field new non-treaty-accountable 
systems that indicate a more aggressive deployment strategy.
    Russia remains in violation of their obligations under the 
Open Skies Treaty and continues to exploit the loopholes in the 
New START [Strategic Arms Reduction] Treaty to their advantage, 
after, of course, having violated the INF [Intermediate-Range 
Nuclear Forces] Treaty. China will find its own nuclear triad--
excuse me, China will field its own nuclear triad in the next 
decade with the development of a nuclear-capable strategic 
bomber, road-mobile ICBMs [intercontinental ballistic 
missiles], and sub-launched ballistic missiles.
    China also continues to build and employ new intermediate-
range ballistic missiles, outpacing the United States. China 
has never been subject to the limits in transparency required 
by an arms control treaty, and it is unclear how to incentivize 
them to join such a regime.
    This year's budget request for nuclear modernization is 
just enough and just in time. None of these programs have any 
margin. Any attempt to delay, defund, or otherwise deprioritize 
our nuclear enterprise will leave us less safe in an era of 
near-peer strategic competition.
    And I want to thank our Administrator for both your 
integrity and commitment and also your advocacy during this 
budgetary process. And to all the witnesses, I want to thank 
you again for being here today, and we look forward to their 
testimony. I yield back.
    Mr. Cooper. I thank the gentleman. Now let's hear from the 
witnesses.
    Ms. Gordon-Hagerty.

   STATEMENT OF HON. LISA E. GORDON-HAGERTY, ADMINISTRATOR, 
            NATIONAL NUCLEAR SECURITY ADMINISTRATION

    Ms. Gordon-Hagerty. Chairman Cooper, Ranking Member Turner, 
and members of the subcommittee, thank you for the opportunity 
to present the President's fiscal year 2021 budget request for 
the Department of Energy's National Nuclear Security 
Administration.
    As always, it is a privilege to testify before you today 
representing the extraordinary men and women that make up the 
DOE NNSA enterprise. We are grateful for your demonstrated 
strong bipartisan support for the NNSA's national security 
missions and the people who execute them every day.
    Chairman Cooper, a written statement has been provided to 
the subcommittee, and I respectfully request it be submitted 
for the record.
    Mr. Cooper. Without objection, so ordered.
    Ms. Gordon-Hagerty. Thank you.
    2020 marks the 20th anniversary of the NNSA's establishment 
by Congress. Although, of course, our heritage goes back much 
further to the Manhattan Project and to the Atomic Energy 
Commission. And, as has always been the case, the effectiveness 
and credibility of America's nuclear weapons capability 
reassures our friends and allies and serves as the ultimate 
deterrent against a nuclear attack by those who wish to harm 
us. In this regard, NNSA is unique in our responsibilities to 
support our Nation's nuclear security missions.
    The $19.8 billion fiscal year 2021 budget request for NNSA 
reflects President Trump's strong commitment to ensuring 
America has a safe, secure, and effective nuclear deterrent for 
many decades to come. This funding also affirms the 
administration's continued work to reduce threats posed by 
nuclear proliferation and nuclear terrorism as well as to 
provide militarily effective nuclear propulsion for the United 
States Navy fleet of aircraft carriers and submarines.
    The weapons activities request of $15.6 billion will allow 
us to modernize the Nation's nuclear weapons stockpile and 
infrastructure and meet national security requirements after 
several decades of neglect. It will modernize the stockpile 
with five weapons modernization programs, execute stockpile 
sustainment activities, and conduct annual assessment 
activities on all weapons systems.
    With this request, we will continue the dismantlement and 
disposition of weapons and components from weapons retired from 
the stockpile and support production modernization activities 
for nonnuclear components and strategic materials, including a 
two-site plutonium pit strategy.
    We will also continue to recapitalize NNSA's aging 
infrastructure, including the Y-12 Uranium Processing Facility, 
the NNSS [Nevada National Security Site] U1a complex 
enhancements project, and the high-explosive science and 
engineering facility at Pantex.
    As many of you have witnessed firsthand, our entire 
enterprise continues to age with much of our infrastructure 
operating far beyond its design life. With this increase, we 
will finally be able to modernize the infrastructure, which is 
old.
    Our defense nuclear nonproliferation [DNN] budget request 
of $2 billion dollars marks the third year in a row that the 
Trump administration has sought increased funding for NNSA's 
nonproliferation and counterterrorism activities and fully 
funds all DNN priority program requirements.
    This reflects the administration's strong commitment to 
reducing global nuclear threats and to arms control efforts 
that advance U.S., allied, and partner security. It will enable 
us to continue to build domestic and international capacity to 
secure and, where possible, eliminate nuclear and radioactive 
materials and prevent nuclear smuggling.
    Further, this request allows us to maintain a robust 
nuclear counterterrorism capability to respond to nuclear and 
radiological incidents, including nuclear forensics activities, 
to attribute the source of material used in a terrorist attack. 
We would advance our capabilities for detecting and monitoring 
foreign nuclear material and weapons production activities.
    Equally important is the Naval Reactors' budget request of 
$1.7 billion. It enables us to provide for the continued safe, 
reliable, and long-lived operation of the U.S. Navy's nuclear 
fleet, which account for more than 40 percent of the Navy's 
major vessels.
    Finally, our Federal salaries and expenses budget request 
of $454 million will allow us to recruit, train, and retain a 
highly skilled workforce of 1,858 Federal employees.
    Mr. Chairman, it is true that our timeline for modernizing 
the nuclear stockpile and recapitalizing the necessary 
infrastructure is aggressive. In some cases, we are asking our 
sites and our partners to do in 10 years what would normally 
take 15 to 20 years.
    But in the 2 years since being confirmed, I have seen 
firsthand the Nuclear Security Enterprise workforce passion and 
dedication and what we can accomplish. Consequently, while the 
schedule may be aggressive, I believe it is achievable. 
However, without doing so with consistent and sustained funding 
and, most importantly, our continued relationship with 
Congress, we will not achieve it.
    At this time, I would like to personally thank Vice Admiral 
Johnny Wolfe, Lieutenant General Clark, and ASD [Assistant 
Secretary of Defense] Mercado, and all of our DOD colleagues 
for their professionalism, your collegiality, and for your 
service to our great Nation. And I also look forward to working 
with GAO on future matters of mutual interest.
    Thank you again for the strong support of this subcommittee 
and for the opportunity to testify before you today. I stand 
ready to answer any questions you may have. Thank you.
    [The prepared statement of Ms. Gordon-Hagerty can be found 
in the Appendix on page 32.]
    Mr. Cooper. Thank you very much.
    Mr. Mercado.

  STATEMENT OF VICTORINO G. MERCADO, PERFORMING THE DUTIES OF 
    ASSISTANT SECRETARY OF DEFENSE FOR STRATEGY, PLANS, AND 
            CAPABILITIES, U.S. DEPARTMENT OF DEFENSE

    Mr. Mercado. Chairman Cooper, Ranking Member Turner, and 
distinguished members of the committee, thank you for the 
opportunity to testify today.
    With your permission, I also have a longer statement for 
the record and will just make a few opening remarks.
    Mr. Cooper. Without objection, so ordered. We will accept 
your written statement for the record.
    Mr. Mercado. Sir, today the United States faces an 
increasingly complex global security environment in which the 
central challenge to our prosperity and security is a 
reemergence of great power competition with China and Russia. 
This remains a central theme of our National Defense Strategy, 
which we are implementing. Moreover, regimes such as North 
Korea and Iran have mature and very capable ballistic missile 
programs with aspirations to be able to deliver nuclear weapons 
with these missiles.
    The foundation for our success in great power competition 
with nuclear powers China and Russia and dealing effectively 
with North Korea and Iran is a safe, secure, survivable, 
flexible, and effective nuclear deterrent embodied by our 
nuclear triad. For this reason, nuclear deterrence is the 
Department's highest priority mission.
    For this important mission, the U.S. seeks only what it 
needs to maintain a credible nuclear deterrent, in contrast to 
Russia, who maintains about 2,000 nonstrategic nuclear weapons 
and are pursuing and fielding other novel nuclear capabilities. 
We have no desire or intent to engage in an arms race nor match 
weapon for weapon the capabilities being fielded by Russia. 
Again, our objective is a credible nuclear deterrent supported 
by flexible capabilities residing in the nuclear triad that are 
tailorable to any potential adversary.
    After decades of deferred recapitalization, we must proceed 
with modernizing U.S. nuclear forces and add additional 
flexibility consistent with our Nuclear Posture Review, such as 
the sea-launched cruise missile, to ensure that there are no 
gains to be made through the use of any nuclear weapon, 
strategic or otherwise.
    The Department of Defense and the National Nuclear Security 
Administration are critical partners in maintaining and 
modernizing our nuclear triad to address the challenges we 
collectively face and appreciate the support that we enjoy from 
this committee. Funding these critical requirements ensures 
that modern replacements will be available before the Nation's 
legacy systems reach the end of their extended service lives 
and we lose them all together.
    The fiscal year 2021 budget request for nuclear forces is 
$28.9 billion or roughly 4.1 percent of the total DOD budget 
request. Modernization or recapitalization of our nuclear 
forces is about 1.7 percent of the total DOD budget request. 
The Nation's nuclear modernization program is affordable.
    Lastly, nuclear attack is the only existential threat to 
the United States, and our nuclear arsenal is the Nation's only 
ultimate insurance policy against such attack. Our nuclear 
triad underwrites every U.S. military operation around the 
world and also provides extended deterrence guarantees to over 
30 allies and partners, precluding the need for them to pursue 
their own nuclear arsenals. This is the return on investment of 
our nuclear forces.
    I thank this committee for its support, and I look forward 
to your questions.
    [The prepared statement of Mr. Mercado can be found in the 
Appendix on page 49.]
    Mr. Cooper. Thank you very much.
    Vice Admiral Wolfe.

    STATEMENT OF VADM JOHNNY R. WOLFE, JR., USN, DIRECTOR, 
       STRATEGIC SYSTEMS PROGRAMS, DEPARTMENT OF THE NAVY

    Admiral Wolfe. Chairman Cooper, Ranking Member Turner, and 
distinguished members of the subcommittee, thank you for the 
opportunity to testify on the Department of Defense's budget 
request for nuclear forces. I am honored to be here today. I 
would like to thank this subcommittee for its continued support 
of the Navy's deterrent mission. I ask you that you please 
accept my written statement for the record.
    Mr. Cooper. Without objection, so ordered.
    Admiral Wolfe. The Nation's nuclear triad of 
intercontinental ballistic missiles, heavy bombers, and 
submarines equipped with submarine-launched ballistic missiles 
is the bedrock of our ability to deter aggression, assure our 
allies and partners, achieve U.S. objectives should deterrence 
fail, and hedge against an uncertain future.
    Nuclear modernization is the Department of Defense's number 
one priority. Nuclear modernization is the Navy's number one 
priority, and nuclear modernization must be fully funded. The 
Navy's Strategic Systems Programs, or SSP, fiscal year 2021 
budget request reflects investment in our responsibility to 
maintain a safe and secure deterrent that is effective, 
flexible, and adaptable for the strategic environment.
    This investment is imperative both to sustaining and to 
recapitalizing the sea-based strategic deterrent. Our budget 
request represents the faith and trust that the Congress and 
this Nation have placed in the Navy to responsibly steward the 
strategic deterrent mission. Our nuclear deterrent is credible, 
but it is aging. Our modernization efforts are underway, but we 
have much to accomplish over this decade.
    As I look to the future of our submarine-launched ballistic 
missile force, I must urgently express a critical juncture that 
we have reached. National capabilities and technologies that 
underpin our needed recapitalization efforts have eroded and 
atrophied. We are feeling today the consequences of historical 
decisions, and we have reached the inflection point.
    The SSP fiscal year 2021 budget request wholly funds the 
sustainment of today's deterrent, but it also begins the 
investment needed to build and reenergize capabilities, 
technologies, workforce, and critical skills required of any 
nuclear nation. This very foundation is timeless, is agnostic 
to a future warfighter solution, and will be a collaborative 
effort with the United States Air Force.
    Today SSP continues to extend the life of the Trident D5 
strategic weapons system and to demonstrate its highly reliable 
performance. Just last month we reached 178 successful flight 
tests, an exceptional record for any weapon system. Our current 
life extension is designed to meet today's form, fit, and 
function to match the Ohio-class submarine service life and to 
serve as the initial weapon system on the Columbia-class 
submarine.
    As the Navy carefully manages the transition of our SSBN 
[ballistic missile submarine] force so too must we manage the 
age-out and attrition of our strategic weapons system. The SSP 
fiscal year 2021 budget reflects important investments in our 
follow-on Trident II D5 Life Extension 2 needed for strategic 
deployment no later than 2039. This funding focuses on 
technical maturation of complex and fundamental technologies 
and opportunities to provide flexibility and adaptability in a 
dynamic and evolving threat environment.
    As our triad's delivery systems and platforms are exceeding 
their planned service lives, our modernization efforts will 
produce just-in-time replacements. Deferred recapitalization 
has left no margin for unanticipated challenges in technical 
work that we had not executed in over 30 years.
    Historical timelines from our first life extension coupled 
with the increased complexity and scope of the D5 Life 
Extension 2 signal that we must begin now. Now is the right 
time to ensure that the sea-based deterrent continues to meet 
strategic requirements.
    From a warhead perspective, the Navy and our partners at 
the National Nuclear Security Administration have successfully 
completed the refurbishment of the W76 warhead family and have 
modified a small number of warheads to fill the low-yield 
option to address an identified deterrence need.
    As we continue to refurbish today's aging warheads, we have 
revised the timeline for completion of the W88 alteration 370 
program, which is now scheduled to reach first production unit 
next year. The fiscal year 2021 budget also reflects the 
Department of Defense's direction to pursue a W93 Mark 7 
warhead, an aeroshell program of record.
    The W93 Mark 7 will address an evolving threat environment 
and ballistic missile warhead modernization requirements, will 
improve operational effectiveness for U.S. Strategic Command, 
and will mitigate technical, operational, programmatic, and 
geopolitical risk in the sea-based leg of the deterrent.
    The Navy's funding request supports solution-agnostic 
reentry body components and materials and is the first step 
toward rebuilding a national industrial base to produce 
aeroshells and other critical components, which the United 
States has not exercised since the early 1990s.
    This investment is also critically important to our other 
U.S. programs and to our United Kingdom partners as they too 
face significant recapitalization demands and execute an 
independent but parallel warhead effort.
    As the 14th director, it is my highest honor to represent 
the men and women of SSP comprising approximately 1,700 
sailors; 1,000 Marines; 300 coastguardsmen; 1,200 civilians; 
and thousands of contractor personnel. It is my personal goal 
to ensure that they are poised to execute the mission with the 
same level of success, passion, and rigor both today and 
tomorrow as they have since our program's inception since 1955.
    Thank you for the opportunity to testify today on behalf of 
the men and women who truly make nuclear deterrence their 
life's work. I look forward to your questions.
    [The prepared statement of Admiral Wolfe can be found in 
the Appendix on page 64.]
    Mr. Cooper. Thank you, Admiral.
    Now, General Clark.

  STATEMENT OF LT GEN RICHARD M. CLARK, USAF, DEPUTY CHIEF OF 
    STAFF FOR STRATEGIC DETERRENCE AND NUCLEAR INTEGRATION, 
                  DEPARTMENT OF THE AIR FORCE

    General Clark. Chairman Cooper, Ranking Member Turner, and 
distinguished members of the subcommittee, thank you for this 
opportunity to discuss the Air Force contributions to the 
nuclear triad. And thank you for your support in ensuring the 
Department of the Air Force has the required resources to 
execute our nuclear deterrence mission.
    I prepared a written statement that conveys the current 
status of the Air Force portion of the nuclear enterprise, and 
I respectfully request that it be submitted for the record.
    Mr. Cooper. Without objection, so ordered.
    General Clark. Thank you, sir.
    In addition to my written statement, I would like to 
emphasize three points before the subcommittee today. First, we 
are grateful for the men and women of the U.S. Air Force who 
built and currently maintain the resilient nuclear triad and 
the nuclear command, control, and communications systems we are 
using today. It is a testament to their ingenuity and hard work 
that the systems built to deter their generation's nuclear 
threats are still meeting America's deterrent needs today.
    But those systems are now decades past their intended 
service lives. Minuteman III is 39 years past its planned 
retirement, and the air-launched cruise missile is 26 years 
past its original service life. Decades of airmen have 
performed valiantly to sustain the capabilities and credibility 
of these systems, but we no longer have the luxury of deferring 
these systems' upgrades or replacements to future generations.
    Second, we need your continued support. There is very 
little margin between the age-out of our existing systems and 
the fielding of the replacement capabilities. We need the 
support of Congress to establish stable funding for the 
National Nuclear Security Agency and all of our DOD nuclear 
systems, both in sustaining current capabilities and developing 
future capabilities. Without stable funding, we cannot deliver 
these systems on time and run the risk of a deterrence gap that 
will put our national security at risk.
    Third, and most importantly, these capabilities will 
backstop the next generation of American security and 
diplomacy. Future airmen will see GBSDs [Ground Based Strategic 
Deterrent] replace Minuteman IIIs as the ready and responsive 
ICBM force deterring tomorrow's threats. They will see B-21s 
take up the bomber mission from B-2s, giving America the 
flexibility of a tailored deterrent response visible to 
adversary and ally alike.
    Men and women across this country will live in a world 
where future American ambassadors can conduct diplomacy with 
the confidence underwritten by stealthy, survivable Columbia-
class submarines, and together our airmen and sailors will 
connect with the warriors of the Space Force to guarantee 
seamless command and control of nuclear forces all day, every 
day without fail.
    These points may sound grandiose, but to me it is very 
real. My son Milo is heading to college this fall, and he 
desires an Air Force career. He may find himself as one of the 
airmen fielding, operating, or sustaining these systems. My 
hope is that we set up his generation and the generation to 
follow with a nuclear deterrent every bit as robust as the one 
that was bestowed upon us.
    So, in summary, please let me reiterate my three points. 
First, past generations have given us a credible and effective 
nuclear deterrent, but a day is coming in the future where it 
will be impossible to sustain it; next, we need your continued 
support to stabilize funding so we can modernize and 
recapitalize these systems to maintain their credibility; and, 
finally, the investments we make today will ensure tomorrow's 
generation and the generations that follow have the 
capabilities they need for the continued defense of our Nation.
    Through all of this, the nuclear enterprise remains the 
number one responsibility of the Department of Defense, and my 
fellow airmen and I are proud of the role we play in 
maintaining a credible and capable nuclear deterrent. Again, I 
appreciate the opportunity to share my thoughts on strategic 
deterrence, and I look forward to answering your questions.
    [The prepared statement of General Clark can be found in 
the Appendix on page 76.]
    Mr. Cooper. Thank you very much, General.
    Ms. Bawden.

STATEMENT OF ALLISON B. BAWDEN, DIRECTOR, NATURAL RESOURCES AND 
       ENVIRONMENT TEAM, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Bawden. Chairman Cooper, Ranking Member Turner, and 
members of the subcommittee, thank you for inviting me to 
discuss GAO's views on NNSA's plans for modernizing the 
Nation's Nuclear Security Enterprise and aligning its efforts 
with DOD's to modernize delivery systems. These remarks should 
be viewed as helping NNSA set itself up for success.
    I also have submitted a written statement for the record 
and ask that it be entered.
    Mr. Cooper. Without objection, so ordered.
    Ms. Bawden. The Nuclear Security Enterprise is embarking on 
its most ambitious level of effort since the Cold War era. NNSA 
is currently managing four weapon modernization programs, 
proposing a fifth, and undertaking infrastructure projects that 
affect every strategic material and component used in nuclear 
weapons.
    Today I will discuss the schedule risks presented by the 
integrated nature of NNSA's and DOD's nuclear modernization 
efforts, budget and schedule estimates for implementing the 
overall program, and the importance of NNSA setting priorities 
among its efforts in the event of budget shortfalls or cost or 
schedule overruns.
    First, on the schedule risks, because NNSA's modernization 
program is highly integrated, any delay could have a 
significant cascading effect on the overall effort. Here are 
three scenarios. First, weapons programs depend on the 
completion of certain infrastructure projects. For example, the 
W87-1 program will require all new components, including 
plutonium pits. The construction schedule for pit facilities is 
aggressive, and a delay could have an impact on the schedule 
for the weapons programs it supports.
    Also, because NNSA uses the same production infrastructure 
for each weapon program and capacity is limited, each program 
schedule can impact the next. In addition, NNSA's weapons 
programs schedules must remain aligned with the schedules for 
DOD's new delivery systems to ensure essential testing is 
completed at critical times. This is especially true for the 
W80-4 warhead and the Air Force's long-range standoff missile, 
as well as the W87-1 warhead, and the Air Force's ICBM 
replacement. The current schedules have little margin for 
delay.
    Second, on budget and schedule estimates, in the past GAO 
has been critical of NNSA's performance on a number of weapon 
modernization programs and major construction projects. We 
identified poor planning and overly optimistic assumptions 
about performance that contributed to cost overruns, schedule 
delays, and program and project cancellations.
    NNSA has made improvements to management controls for these 
efforts, especially around cost and schedule estimating, and is 
increasingly paying attention to program and project management 
capacity. As NNSA undertakes an increased scope of work, it is 
essential that its overall plans reflect realistic cost and 
schedule estimates rather than best case estimates. For 
example, while NNSA has not yet fully developed its schedule 
for constructing pit facilities, its own analysis of 
alternatives suggests current dates will be difficult to 
achieve.
    Finally, on setting priorities. The President's fiscal year 
2021 budget request includes a 25 percent increase for NNSA's 
modernization program and anticipates sustaining this increased 
funding level for at least the next 5 years.
    In 2017, GAO reviewed NNSA's long-term plans for its 
modernization program. At the time, we found that NNSA planned 
to defer work to a period beyond its 5-year programming window. 
We concluded that these deferrals created a significant bow 
wave of funding needs in future years to undertake the 
simultaneous weapons programs and construction projects it 
planned. The requested budget increase for next year suggests 
this bow wave has arrived.
    Requesting a funding increase is one way to address the bow 
wave and maintain the overall scope of planned modernization 
efforts. However, actual funding in future years could fall 
short of budget estimates, and programs or projects could and 
have encountered cost overruns or schedule delays.
    GAO recommended in 2017 that, to increase the credibility 
of its modernization plans, NNSA should develop a portfolio 
approach as a way to manage these risks. Such an approach would 
present options that could be exercised if budget or schedule 
risks materialize. This would include identifying programs for 
which starts could be deferred. Any such plan would need to be 
put forward in collaboration with DOD.
    NNSA's most recent long-term plan includes an assessment of 
whether its budget requests fall within the range of its 
program cost estimates. However, it has not yet adopted a 
portfolio approach to setting its priorities should cost or 
schedule risks materialize. NNSA's planning could further 
benefit from this approach in light of the 2018 Nuclear Posture 
Review and additional programs it anticipates.
    I appreciate your time this afternoon, and I am happy to 
answer your questions.
    [The prepared statement of Ms. Bawden can be found in the 
Appendix on page 86.]
    Mr. Cooper. Thank you very much.
    I am going to hold most of my questions for the closed 
session. But I would like to ask Ms. Gordon-Hagerty about a 
sentence of her testimony on page 11. It reads, ``Additionally, 
the request for M3,'' that is Material Management Minimization 
program, ``supports the removal and disposal of weapons-usable 
nuclear material, with priority on removing surplus plutonium 
from the State of South Carolina.''
    I was wondering about the urgency of that given the fact 
that the second site for pit production is supposed to be the 
State of South Carolina. Why are we so interested in getting 
plutonium out of South Carolina if we are just going to be 
returning plutonium to South Carolina?
    Ms. Gordon-Hagerty. Mr. Chairman, the removal of the 
material from South Carolina is through a program for our 
nonproliferation needs. That resulted in the agreement that we 
had with the former Soviet Union, with Russia to remove 34 
metric tons of excess plutonium from the world, and we were 
planning on doing that through the MOX [Mixed Oxide Fuel] 
program at Savannah River Site.
    But since MOX was over construction, over budget--under 
construction and over budget, we decided to bring that program 
to termination, and we made that decision, Secretary Perry did, 
in 2018.
    Subsequently, we have been working aggressively to remove 
the 9.5 metric tons of material still in the State of South 
Carolina, and we are committed to that approach. We are 
committed to removing 34 metric tons of excess plutonium from 
the United States, and we are doing it through a tried and true 
process called dilute and dispose or surplus plutonium 
disposition.
    So that is material that would not otherwise be used in our 
stockpile. It is excess material. It is not in a good form, and 
we would have to put it through quite a number of steps before 
we were able to use it for the stockpile. That material will go 
through a process and then be ultimately buried at WIPP, at the 
Waste Isolation Pilot Plant.
    We have made a commitment to the State of South Carolina, 
and we are sticking with our commitment. In fact, last year we 
were under court order to remove a metric ton of material from 
the State of South Carolina. We did it in 6 months ahead of 
schedule, and so we are moving on that. And we have an 
aggressive schedule, but it is a doable schedule. We have got 
long lead procurements going on for the State of South 
Carolina. We have got a program to undertake that mission at 
South Carolina.
    Mr. Cooper. Thank you.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    I first want to open by giving the heartfelt sorrow, I 
think, from everybody in the room, about the tornados that have 
hit your community. It is very difficult. My community last 
summer had eight tornados that hit the city of Dayton and the 
surrounding areas. It did not make the extent of damage that 
you have had, but I know to what extent a community has to 
rally, and I want you to know that certainly you have our 
support and sympathy.
    So I am a big fan of GAO because, I mean, your reports 
are--they are almost prophetic, right. You go back and you read 
them, and you think: Gosh, I wish we had done that.
    So, you know, I appreciate really just the extent to which 
you pore over things.
    And, gosh, Allison, looking at your resume and bio, what a 
great, you know, academic work you have done. I appreciate you 
have dedicated yourself to the GAO.
    I am going to ask the group a question that I am going to 
ask you slightly differently because it applies to you slightly 
differently, right. So I am going to begin by reading the 
quote. So, last week, Admiral Richard, the commander of 
STRATCOM [United States Strategic Command], testified before 
this subcommittee and I read this quote in my opening 
statement. He stated, quote: The entire triad is reaching the 
end of its useful life, and so either we replace what we have 
now or we start to divest almost on a path to unilateral 
disarmament in the face of this growing threat.
    I am going to ask each of you if you agree with that, and 
then, with Allison, I am just going to ask, does GAO disagree, 
because you are not really in a position to agree, but I don't 
think you disagree. So, to our Administrator, do you agree with 
that quote?
    Ms. Gordon-Hagerty. Yes, I do.
    Mr. Turner. Mr. Mercado.
    Mr. Mercado. Yes, sir, I do.
    Mr. Turner. Vice Admiral Wolfe.
    Admiral Wolfe. Yes, sir, I do.
    Mr. Turner. General Clark.
    General Clark. Yes, sir, absolutely.
    Mr. Turner. Does GAO disagree with that quote?
    Ms. Bawden. No.
    Mr. Turner. Great. Excellent.
    So, Administrator, you have been just dogmatic in ensuring 
that people understand that you need infrastructure, that you 
need production, that in order for there to be a viable 
deterrent that then there has to be production and that your 
system has not been in a production mode for a very, very long 
time; that in order for us to just stay with what we have, we 
have to invest to be able to respond.
    Now, most people don't understand that, in NNSA, under the 
Department of Energy, is actually where these things are made, 
where you have to invest in the nuclear infrastructure in order 
for you to be able to perform and to deliver.
    Give us a picture of what you are facing because the--you 
know, as Allison from GAO was saying, you know, all these are 
critical paths, which means if we don't fund these, we miss. I 
mean, you have got to deliver. You can't make a mistake. But we 
have got to deliver first or you surely can't. So tell us what 
you are facing as to why currently we have to fund this bill.
    Ms. Gordon-Hagerty. Mr. Turner, let me state by saying I am 
very proud to be able to represent the 50,000 men and women 
that support our Nuclear Security Enterprise. And in that 
regard, we are talking about an infrastructure that was 
developed and built in the Manhattan Project. Thirty percent of 
our facilities were built and constructed in the Manhattan 
Project, and we are operating in those facilities.
    Now, we are operating to the point of obviously past their 
lifetime. More than 50 percent of our facilities are more than 
40 years old. Most of our facilities are in the single point of 
failure where we don't have replication, where we don't have a 
resilient and responsive infrastructure.
    We have waited for almost three decades now. We have 
endured budget caps. We have endured promises to be able to 
increase and to modernize our infrastructure as well as our 
capacity to support the Department of Defense requirements. We 
are at a turning point, Representative Turner. We have got to 
get on with this. We have no margin built in any longer for 
infrastructure or modernization.
    And on top of all of that, while over the last 20 years we 
were effectively working on one major modernization program, 
that of the 76-1, which we completed ahead of schedule and on 
budget, we are now committed to supporting five major 
modernization efforts of the Department of Defense.
    So we are working. We have a schedule. We are working. We 
are committed, and we are completely aligned with the 
Department of Defense, with our colleagues who are sitting with 
me today at the table, but we have very little margin for 
error. We know we have got the schedule. We know we can commit 
to, and we can execute. However, we have limited capacity.
    What we saw recently with the issue--with the capacitor 
issue with the 61-12 and the 88 was a result of the fragility 
of our complex, we have allowed programs to basically evaporate 
our business sector, if you will, our--pretty much our defense 
industrial complex, of which we are our own defense industrial 
complex.
    You can't go out and buy plutonium or put out a bid for 
things like that and for manufacturing the unique components 
that we put into our nuclear weapons systems. Those programs 
are long gone. And so what we are doing is basically building 
up capacity from the ground up.
    We would have liked to have avoided the situation that we 
find ourselves in with the 61 and the 88. That said, we have 
had lessons learned from that. We are able to apply them to our 
other systems under which we are operating now and which we are 
modernizing. We are working closely to continue to be aligned 
with the Department of Defense.
    So we are really at, as I said before, a tipping point. We 
have no more margin for error. We have got facilities that need 
to be modernized. We have got personnel that need to be hired 
so we can undertake and execute our Nation's nuclear deterrent.
    Mr. Turner. Two more quick questions for you, 
Administrator. You talked--you used numbers, 61, 88----
    Ms. Gordon-Hagerty. My apologies.
    Mr. Turner. No. No. Could you tell us what those relate to? 
Where do those numbers come from, 61, 88?
    Ms. Gordon-Hagerty. I am sorry. So the B61 Mod 12 is the 
gravity bomb that the U.S. Air Force deploys. That is a 
modernization program. It was actually fielded. The first B16 
was fielded in the early 1960s.
    Mr. Turner. Okay. That is what I wanted you to get to. So 
61 refers to like 1961?
    Ms. Gordon-Hagerty. Pretty much roughly the age at which--
about the time where it was deployed.
    Mr. Turner. And 88?
    Ms. Gordon-Hagerty. And the 88 was 1988 or so.
    Mr. Turner. Okay. So can you tell us how long has it been 
since we have called on you to do this? Because there--I mean, 
it has been over 20 years, has it not----
    Ms. Gordon-Hagerty. Yes, sir.
    Mr. Turner [continuing]. Since your--the NNSA has been 
required to actually construct the pit, the nuclear weapon 
portion of a weapon.
    Now, what is important about that--now, I want to hear what 
the year is, how long you think it has been, because people 
think that once you have a nuclear weapon you have a nuclear 
weapon. But if you have it and it sits there for 20, 30, 40 
years, it begins to degrade. So you are going to have to 
replace it. And I think the understanding that people have of 
this, that once you buy one, you have got one, is contrary to 
what your experience is. Could you speak about that for a 
moment?
    Ms. Gordon-Hagerty. Certainly. Let me state by beginning my 
statement by saying that the United States is the only nuclear 
weapons state that is neither designing nor fielding new 
nuclear weapons. We are modernizing our current nuclear weapons 
stockpile, a stockpile that was built for approximately 20 
years for the weapons when they were fielded.
    We have stockpile modernization programs for all of the 
stockpile--of all the weapons that are in our stockpile 
currently. And to your point, we are modernizing them, so we 
are providing--what we are doing, just like I referred to the 
W76-1, that was introduced into the stockpile, into the 
deployable stockpile in the mid-1970s.
    We modernized that over a 20-year plan. It took 10 years to 
develop the technical modernization programs, and then we did 
the production for another 10 years, and we finished that in 
the beginning of 2019. That gives you some idea about the 
progress that it took, but that was the only modernization 
program we had at that time. We are now going through 
significant--some major modernization programs, life extension 
programs for other systems that are currently in the stockpile.
    At some point, however, to your point, sir, that we are not 
going to be able to life extend our way out of our current 
nuclear weapons stockpile. It talks--it speaks to the 
unbelievable talent of our laboratories, plants, and our sites 
that they designed and fielded nuclear weapons for 
approximately 20 years, and we are going to have weapons in our 
stockpile for 60-plus years.
    Mr. Turner. Mr. Chairman, thank you for your indulgence. I 
have additional questions for the rest of them but I will hold 
those until afterwards. Thank you.
    Mr. Cooper. I thank the gentleman for forbearing.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And thank you to all of you for being here and joining with 
us and doing the exceptional work that you do.
    I wanted to just turn first, Secretary Gordon-Hagerty, to 
you, because as you may know, there was bipartisan concern 
expressed in our hearing of last week, and it goes back to the 
fact that last year you told us that you needed $16.9 billion 
for fiscal year 2021 to execute the program of record. And now 
only 1 year later, we are speaking about another $3 billion 
more than you planned for just a year ago.
    So I want--if you could express for us, do you consider it 
important that this committee understand why a Virginia-class 
submarine was cut to pay for this increase? General Milley 
specifically said in the last hearing that he did not think 
that this was good prioritization.
    Ms. Gordon-Hagerty. The administration has made it clear, 
as has the Department of Defense, the Secretary of Defense, 
that modernization of our nuclear triad is the number one 
priority. And NNSA is part and parcel of that process.
    And so the requirements that we laid out for our 2021 
request was something that went like this: This was a 
requirements-based, yearlong approach that I shepherded 
personally with our laboratory, plant, site, field office, and 
headquarters leadership to look at every single requirement 
across our enterprise, what was executable and we can execute 
at this level of funding, what were our priorities, what were 
our commitments based on the requirements set forth by the 
Department of Defense and the Nuclear Weapons Council.
    This was not just a number that we grabbed. This was a 
number that we said: Can you execute? And I asked in our 
internal discussions with our labs, plants, and sites 
leadership, will you be able to execute if we receive these 
resources if they are appropriated by Congress. And the answer 
was a resounding yes.
    We know we have an aggressive schedule. I also recognize 
last year we had not asked for or sought this amount of--these 
amount of resources, but that was because we have a budget 
caps, and we were operating under other situations. This is the 
number. This is a realistic number to get us to resolve the 
decades-long neglect that has been applied to NNSA and our 
enterprises.
    Mrs. Davis. Thank you.
    I want to just turn now to Ms. Bawden because--and you can 
answer this with either a yes or no, if you wish. Are you 
confident that NNSA can execute an unplanned $3 billion, 20 
percent increase in a single year?
    Ms. Bawden. It will be very challenging.
    Mrs. Davis. So we are kind of faced with both of those 
somewhat realities, I guess.
    Secretary Gordon-Hagerty, so given past practice, NNSA is 
likely to only increase its uncosted balances in fiscal year 
2020 given the large increase NNSA received. Is that correct?
    Ms. Gordon-Hagerty. There is a great deal----
    Mrs. Davis. Those are going to grow a lot.
    Ms. Gordon-Hagerty. Well, there has been a great deal 
talked about the uncosted balances in the Department of Energy 
at NNSA in particular. I am happy to report by the--at the end 
of fiscal year 2019, NNSA had a net funds of only $637 million. 
That $8 billion carryover, despite the impressive number, is, 
in fact, a reasonable amount for NNSA to carry over when you 
look at $100 billion program over the next 5 years.
    In fact, we are comparable to or less than most other 
Federal agencies when it comes to major construction and the 
life extension programs and all of the other programs that we 
have to administer.
    Mrs. Davis. And can I turn to you again, Ms. Bawden, and 
forgive me for going back and forth like this, but the reality 
is that I think this is helpful for us to get a sense of the 
evaluation on both ends. Can you comment on what the Secretary 
has said? How likely are we to see significant increases in the 
already very large $8 billion uncosted and unobligated balances 
if NNSA were to receive all the money that it is requesting?
    Ms. Bawden. It is a great question, and it really depends 
on how quickly NNSA can ramp up its spending rate. There are 
really two ways to do that, which is through hiring people and 
increasing activity on their contracts. There are plans to do 
that. The Administrator spoke about the Federal salaries and 
expenses increase that is being requested, and we do see, you 
know, a lot of hiring activity among the contractors, but that 
spend rate has to go up very quickly to not see those balances.
    Mrs. Davis. To do that, yeah.
    And, Secretary Gordon-Hagerty, so one of the issues, of 
course, is that the NNSA didn't share their budget information 
in a timely manner. So part of the concern here is that we want 
to be certain that the proper planning was done for this budget 
if it was not shared with the DOD in a timely manner. So, in 
fact, they had no way of responding to your request.
    Mr. Cooper. The gentlelady's time is expired. If you could 
give us a quick answer here, that would be great.
    Ms. Gordon-Hagerty. We worked through the Nuclear Weapons 
Council process, and we worked collaboratively with our 
counterparts in the Department of Defense to ensure that we 
continued to be aligned with the requirements set forth by DOD.
    Mrs. Davis. So, in the future, that information would be 
shared with DOD in a timely fashion?
    Ms. Gordon-Hagerty. We will continue to work through the 
executive branch process.
    Mrs. Davis. Thank you very much, Mr. Chairman.
    Mr. Cooper. The gentleman from South Carolina, Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank each of you for being here today. And, 
Administrator Gordon-Hagerty, I want to thank you very much, 
several weeks ago visiting the Savannah River Site, hosting 
Chairman Adam Smith to witness the crucial national security 
work that NNSA does at the site.
    And I am also very happy to extend a warm welcome to any of 
my colleagues who would like to visit the site to see the 
critical work that has taken place there, and it is especially 
meaningful to me. I am the only Member of Congress who has ever 
worked at the Savannah River Site, and so I know how capable 
the people are who are there on behalf of the American 
citizens.
    With that, Administrator, how is the site progressing with 
the conceptual design for the proposed Savannah River plutonium 
processing facility, and what is the current schedule for the 
crucial Decision 1 package?
    Ms. Gordon-Hagerty. Representative Wilson, we are making 
great progress in conceptual design, and we are hopeful that 
the contractor that is working that process at Savannah River 
Site will have that to us this year. Critical Decision 1, or 
CD-1, will be available, will be provided, and will be executed 
in fiscal year 2021 with the request for our funding at $442 
million.
    Mr. Wilson. That is very encouraging. And I know my 
constituents are very happy about any expedition and expedited 
effort.
    Admiral Wolfe, the Navy fielded the W76-2 low-yield warhead 
earlier this month. The Nuclear Posture Review identifies the 
requirement to modify a small number of submarine-launched 
ballistic missile warheads to combat potential adversaries, 
such as Russia, who believe that employment of the low-yield 
nuclear weapons give them an advantage over the United States.
    However, the W76-2 is one of two varieties of W76 which 
just completed its life service extension program. These 
systems will require modernization in the coming years as their 
cores are increasingly older. What are the steps the Department 
is taking to ensure seamless modernization of these systems and 
to ensure that readiness is not impacted given the growing 
nuclear threat of other countries? Additionally, what steps are 
being taken to ensure that the U.S. maintains its nuclear 
deterrence?
    Admiral Wolfe. Yes, sir. Thank you for the question.
    So the answer to your first part of that is we continue to 
work within NNSA, as Ms. Gordon-Hagerty said, on the 
modernization, on the life extension, particularly the 76, and 
as we went through that program we were lockstep with NNSA. And 
so as we have received custody of those and started to deploy 
those, we have absolute confidence that those weapons are what 
they need to be.
    As we look to the future, as I said, the W88 as we continue 
the Alt 370 for that particular weapon, that will give us 
additional life extension for it. So that will give us the 
deterrent that we need for the W88. And then, in the future, 
that is the whole reason why we are moving forward with NNSA on 
the new program of record, the W93 Mark 7.
    That will give us what we need going into the future to 
help what a STRATCOM requirement is, to meet that, as well as 
make sure that we have a viable deterrent, we have a viable 
path forward for everything that we do both on Ohio and with 
what we are doing with our modernization for the Columbia 
submarine as well.
    Mr. Wilson. Thank you very much. And, indeed, peace through 
strength, So thank you for what you are doing.
    And, General Clark, I appreciate the administration is 
undergoing review of the U.S. participation in the Open Skies 
Treaty. There is significant cost associated with modernizing 
our Open Skies aircraft for arguably little payoff. 
Additionally, Russia has violated the treaty by restricting our 
access for certain areas of flyovers and also using the treaty 
for surveillance of our President and his home and the nuclear 
command and control.
    With commercial providers able to provide the same, if not 
better, imagery for our NATO [North Atlantic Treaty 
Organization] allies, is there any strategic reason to remain 
in this outdated treaty?
    General Clark. Sir, thank you for your question. And 
currently we are executing Open Skies completely as an Air 
Force to execute it within the bounds of the treaty, and we are 
also moving forward on modernization of the programs until told 
otherwise.
    Regarding whether or not we should be in the treaty, from 
an Air Force perspective, we are in favor of any treaty that is 
verifiable, enforceable, equitable, and to the best interest of 
the United States. But you are correct that we have noted some 
violations by Russia in the treaty, and really it is up to the 
administration to make a decision on the cost benefit of 
whether or not it is worth us staying in. But until that 
decision is made, the Air Force will continue to abide by the 
treaty and execute as appropriate.
    Mr. Wilson. Thank you again.
    General Clark. Thank you again.
    Mr. Cooper. The gentleman's time is expired.
    Mr. Carbajal.
    Mr. Carbajal. Thank you, Mr. Chair.
    Ms. Bawden, the NNSA is requesting $15.6 billion for 
weapons activities in fiscal year 2021. The request is $2.8 
billion above the NNSA's plan to request for fiscal year 2021 
as of the fiscal year 2020 budget plan. How concerned are you 
about the long-term affordability of the NNSA's nuclear weapons 
sustainment and modernization plans, and what steps, if any, is 
the NNSA taking to ensure the affordability and executability 
of the 2018 Nuclear Posture Review?
    Ms. Bawden. Thank you. We are concerned about the long-term 
affordability of the plans. The request that was made for this 
year is sustained over the next 5 years, and we await the long-
term 25-year plan from NNSA to see what is anticipated as 
budgetary needs beyond that.
    I talked earlier about a recommendation the GAO made in 
2017 concerning the importance of prioritizing programs should 
there be budgetary shortfalls or should programs experience 
cost overruns or schedule delays. And we continue to believe it 
is important that NNSA move toward those kinds of plans in case 
those risks are experienced.
    Mr. Carbajal. Thank you.
    Mr. Mercado, the New START Treaty expires in less than 1 
year. While the administration has said they intend to pursue a 
nuclear arms control agreement with Russia and China, China has 
publicly rejected negotiations. What is the path forward to 
engage with China and pursue an arms control agreement, and 
what is the strategy if China will not participate?
    Mr. Mercado. Mr. Carbajal, sir, I believe as we assess 
China's intent, I think they see more benefit to be part of an 
agreement for the purposes of just to gain information, you 
know, to understand, you know, they have leverage because they 
are expanding their nuclear arsenal while we and Russia have a 
fairly robust, mature arsenal.
    So what they would gain from trying to be part of a treaty 
and still preserve the right to continue to expand, we believe 
that there may be an incentive for them to want to participate. 
However, we have to continually assess their motives. So, as 
you state, Russia and China and us are in very different states 
of our nuclear capabilities. So we have to be very careful 
about that.
    Mr. Carbajal. Thank you, Mr. Chair. I yield back.
    Mr. Cooper. I thank the gentleman.
    The next questioner was Ms. Cheney, but I believe she has 
left, so Mr. Khanna.
    Mr. Khanna. Thank you, Mr. Chairman.
    My understanding is that we have about 6,550 nuclear 
weapons. Russia has about 6,800, and China has about 270. Is 
that correct, Ms. Gordon-Hagerty, or whoever knows the answer? 
Ballpark.
    Mr. Mercado. Sir, I think China seems about right. And I 
think our--we are capped at roughly about 1,500 or so deployed.
    Mr. Khanna. How many nuclear weapons do we have? My 
understanding is Russia has about 6,800, and we have 6,550. It 
seems like a pretty basic question. I think we should know how 
many nuclear weapons we have.
    Mr. Turner. If the gentleman would yield, the question is 
to deployed weapons and long range and short range, and as they 
just said, we are going to go to classified session. Perhaps it 
would be best for that to be answered there.
    But the distinction, while they were all deer in the 
headlights when you asked the question, is that you have got to 
give them questions based on categories so they are not going 
to--no one--they are not going to be answering a question as 
just an aggregate because of the way things break down. But we 
do have a classified session that the chairman has arranged.
    Mr. Khanna. I guess, what I am trying to understand also 
is, and maybe this would be in classified setting, I mean, 10 
years from now, let's say we didn't do anything, because I 
appreciate Representative Turner's point--at some point, these 
weapons deteriorate, but that is over 20, 30 years. In 10 
years, do we have--do we track how many weapons would we still 
have operational in 10 years and 20 years and 30 years?
    Admiral Wolfe. So, from our perspective, sir, for the Navy, 
absolutely. I mean, but, again, the fundamental discussion goes 
back to what Ms. Gordon-Hagerty said, what we have been saying 
is. But even those in the stockpile, they age every day. 
Whether they are deployed or not, they are aging. And so, you 
know, the physics of all of this starts to take over. So you 
can't just look at this from a pure numbers perspective 
because, as we built these 30, 40 years ago, they will continue 
to age, and so, at some point, to remain credible you have to 
start modernizing.
    Mr. Khanna. Well, we have--and maybe you could present this 
in a classified setting or others--we have a chart saying, you 
know, like a corporation would. Here is when these weapons 
would no longer be good, and here is--you know, in 2030, we are 
going to have these many weapons that work; in 2035, these 
many. Is that correct, somewhere that exists?
    General Clark. Sir, I think, from my perspective, our plans 
for modernization aren't about increasing the numbers of the 
weapons. It is about increasing the quality and modernizing 
them so that they are still credible, capable into the future. 
But as far as greater numbers of weapons is not the direction 
that we are headed.
    Mr. Khanna. No. No. But I guess it would be different, 
right, I mean, it would make a difference for people to know 
whether in 2030 we are going to have 100 weapons that work or 
whether in 2030 we are going to have 2,500 weapons that work.
    You know, I mean, I guess the question is on deterrence, 
right. I mean, I believe--I mean, you may disagree--that there 
is no way in the world--and people can--this is on tape--that 
Russia is going to launch a nuclear weapon against China, even 
though China only has 270 weapons.
    So the question is, what is--is their thinking on what a 
deterrence stockpile is, on what a second credible threat is, 
how many weapons we need to sufficiently achieve deterrence and 
a second strike because it is all priorities? I mean, my bigger 
concern is, is Russia going to launch a cyber attack or 
election interference? And so are people doing that kind of 
analysis?
    Mr. Mercado. Sir, in a closed session, we can go into what 
we have observed and assessed with regard to Russia's recent 
exercise that they have conducted just late last year, to try 
to glean their doctrine and their intent with regard to nuclear 
weapons.
    Mr. Khanna. And my final question, I don't know if you can 
answer it in open session, is what is Russia's strategy in 
terms of--I mean, let's say they have 6,000 and they go to 
15,000. I mean, what are they hoping--what strategic advantage 
does that afford them? Because they would know even if we had 
5,000, we could obliterate them if they struck. So what does 
the marginal advantage of going from 6,000 to whatever give 
Russia?
    Mr. Mercado. Sir, as I said in my opening remarks is that 
our biggest concern at this point, one of the biggest concerns 
is the 2,000 numbers of nonstrategic nuclear weapons that 
Russia is maintaining and how they are updating that arsenal. 
And I guess we can go again in closed session about, you know, 
how we see their doctrine of employing those 2,000 nonstrategic 
nuclear weapons.
    Mr. Khanna. All right. My final point for the record is I 
fundamentally believe Russia is a has-been power. They are 
about one-tenth of our economy. They are not nearly as 
innovative. We won the Cold War. I think they are the last 
grasp. I am far more concerned about the rise of China and 
other nations.
    Mr. Cooper. The gentleman's time is expired.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Ms. Bawden, could you explain what a portfolio management 
approach is compared to what NNSA is doing now and why that 
would be better?
    Ms. Bawden. Thank you.
    Mr. Larsen. In the opinion of GAO.
    Ms. Bawden. Sure. So a portfolio management approach 
essentially looks at the big picture. It looks across all of 
the programs and projects, and it would think about sort of 
where are the performance cliffs, what has to be done by a 
certain date, and what are potential tradeoffs? And it 
identifies what that trade space is so that the agency can 
select between programs and projects if such a thing was 
necessary.
    Mr. Larsen. And are you arguing in your report that that is 
more likely to happen and therefore NNSA ought to take that 
approach?
    Ms. Bawden. What we are arguing is that it is an effective 
risk mitigation strategy, and that it should sort of be in 
their back pocket should it be needed. And effectively 
communicating that strategy, we believe, would engender a level 
of trust to understand what requests they are putting forward, 
what that request funds, and what options are should what they 
have requested differ from what actually happens.
    Of course, looking back historically, there have been 
differences between what NNSA and the President have requested 
in their budgets and what has been actually received. So we 
feel that this is an effective risk mitigation strategy should 
that be needed.
    Mr. Larsen. Yeah. Ms. Gordon-Hagerty, thanks for coming. 
And I don't mean this question--because I respect you and I 
respect the work that you are doing, so I don't mean this 
question to be too snarky, but it seems like the risk strategy 
right now is to throw more money at the enterprise instead of 
manage the portfolio. Tell me where I am wrong.
    Ms. Gordon-Hagerty. I would respectfully disagree with your 
comment. What we have done, as I said, we took a yearlong 
approach. It was requirements based, meaning the priorities set 
forth by the Nuclear Weapons Council and by all of the 
requirements set forth in the Nuclear Posture Review and all of 
the documents that are guiding requirements for the NNSA----
    Mr. Larsen. Can I stop you there, though?
    Ms. Gordon-Hagerty. Yeah.
    Mr. Larsen. Because if it is requirements based, and I will 
grant you that, then it means you will always have to meet the 
requirements even if you run into delays, you run into the 
issues of programs, platforms and delivery platforms and 
weapons being integrated. If there is delays in one and not 
delay in the other, then the only way to address--meeting the 
requirement is to put more money at it.
    Ms. Gordon-Hagerty. Not necessarily, sir. What we do is we 
remain very closely aligned almost on a daily basis with our 
colleagues in the Navy and the Air Force through the Nuclear 
Weapons Council, through action officer groups to ensure that 
we remain aligned through all the programs if we have slips.
    We are working together. In fact, we had recently had one 
with the capacitor issue, and we remain fully aligned with our 
colleagues to ensure that any slippage in the program 
continues--remains fully aligned.
    Mr. Larsen. I would note that last week we perhaps heard 
that the Chairman of the Joint Chiefs of Staff is not part of 
that group that is fully aligned with you in testimony where he 
didn't--he wasn't part of that decision making where the money 
was taken out of shipbuilding and put it into nuclear weapons. 
So you all might agree, but maybe it is not everyone is 
agreeing. I would just note that.
    Ms. Gordon-Hagerty. If I may, sir, just one final thing, we 
have updated our weapons activities where we more modernized, 
if you will, or aligned our programs where all of our strategic 
materials now are in alignment. All of our bombs, all of our 
weapons, all of our systems are now aligned to reflect modern 
and future requirements that we have so that we find more 
efficiencies and find--continue to find efficiencies and 
improvements to apply higher fidelity to our programs 
throughout all of NNSA.
    Mr. Larsen. Sure.
    Ms. Bawden, you noted that in your report that NNSA has 
agreed to some of your recommendations and some of them are 
still open. Are they open because there is disagreement, or are 
they open because they haven't got around to them yet?
    Ms. Bawden. We don't see disagreement on this 
recommendation, but typically we measure implementation over a 
4-year period, which we haven't reached yet. We acknowledge 
some progress in terms of planning toward portfolio management. 
Their last long-term plan that was put out last year included 
an affordability analysis, but it didn't expose sort of what 
those tradeoffs might be should budget shortfalls or 
performance problems occur.
    Mr. Larsen. All right. Thank you.
    I yield back.
    Mr. Cooper. I thank the gentleman.
    Mr. Garamendi. I thought Ms. Horn was here, but it looks 
like she has departed as well. You are in luck.
    Mr. Garamendi. I think I prefer to get to the classified.
    Mr. Cooper. Classified session? You are my hero. What a 
great American.
    Mr. Garamendi. I will take what praise I can get.
    Mr. Cooper. Mr. Lamborn, our honorary member.
    Mr. Lamborn. Thank you, Mr. Chairman, for letting me be 
part of this hearing and for having this hearing. I am going to 
have a question or two so I may not be as much of a hero at 
this moment.
    But, Ms. Gordon-Hagerty, let me just ask several questions 
drilling down a little bit on the W93. What is driving the 
requirements for the W93 that NNSA is pursuing?
    Ms. Gordon-Hagerty. The W93 Mark 7 is a Nuclear Weapons 
Council directed program, a program of record. It was endorsed 
by the--approved by the Deputy Secretary of Defense, and at 
this time, NNSA is being directed to conduct a rigorous phase 
one study to inform us better on the W93. I would defer to my 
colleague from the Navy who sets the requirements for the W73 
Mark 7.
    Admiral Wolfe. Yes, sir. Thank you. So I think you heard 
Admiral Richard last week talk about this is a STRATCOM 
requirement. He has a need. He has laid that requirement into 
the Nuke Weapons Council. The Nuke Weapons Council has 
validated that, and that is why the Nuke Weapons Council 
directed a new program of record called the Mark 93--or the W93 
Mark 7.
    My portion of that is the actual aeroshell development and 
all of the nonnuclear components that go with that, which is 
why, as we look into the future, this is an opportunity not 
only to meet a STRATCOM requirement, but as I said earlier, to 
really recapitalize everything that we do.
    We haven't developed aeroshells or built aeroshells in this 
Nation for almost 30 years. That is a technology that is very 
unique to our business, to the Air Force and to the Navy. And 
if we don't start now just looking at the basic technologies, 
and as I talked to the chairman about in a closed session 
recently, and look at where we get those materials, we will 
find ourselves short. And so we have got to start that now as 
we move into the future.
    Mr. Lamborn. How will this warhead have an effect on the 
British allies and their ability to support their modernization 
efforts? For either one of you.
    Admiral Wolfe. So as I said, sir, earlier, so the U.K. 
[United Kingdom] has a parallel program. They have just 
announced it to their Parliament under the Polaris Sales 
Agreement with what I do for the Navy. And I will let Ms. 
Gordon-Hagerty talk about the mutual defense agreement.
    But we are lockstep with the U.K. on what they need to do 
to modernize everything that they are doing in their business 
for the Navy's portion of this, the aeroshell and all the 
nonnuclear components. They will be involved with us. They will 
understand what we are doing so they can leverage that for 
their program. So it is absolutely critical for them to be able 
to do that as we move through our program of record.
    Ms. Gordon-Hagerty. And for the nuclear explosive package 
for which NNSA is responsible, we work very closely with our 
MOD [Ministry of Defence] counterparts through the Mutual 
Defense Agreement of 1958.
    Mr. Lamborn. Okay. Thank you. And, lastly, is this to be 
considered a new weapon or weapon system or a different 
configuration of previously produced components?
    Ms. Gordon-Hagerty. The warhead, as we know it today, but 
that is what will inform us and that will be borne out in the 
phase one study as we undertake that phase one study. Right 
now, it is based on previously deployed and also previously 
tested nuclear explosive components. So it will not be 
considered in that vein of we will be producing a whole new 
system. We are, however, required to and will be borne out in 
the study that is called the phase one study. So answering 
questions about whether or not this is a new weapon or we will 
require pits for this, it is premature to answer those 
questions. We do not know, which is why we need to be fully 
informed by the phase one study.
    Admiral Wolfe. Yes, sir. And on the Navy side, this will 
be--for the nonnuclear components outside of the aeroshell this 
will be a continued evolution and modernization of all of the 
nonnuclear components, electronics, things that are very unique 
to what we do in this business.
    For the aeroshell, we will start to look for all of those 
technologies, like I said, for 30 years that we haven't done, 
and we have basically got to look and figure out how we can 
even produce an aeroshell. Agnostic of whatever the final 
solution is from NNSA, we have got to have this for all of our 
systems as we move into the future. So the budget that we 
requested starting in 2021 goes to develop all those 
technologies so that as we marry up we have got a solution 
moving forward.
    Mr. Lamborn. When I look at what the Russians are doing 
with talk about a nuclear cruise--powered cruise missile or an 
underwater nuclear-tipped submarine, an unmanned submarine or 
some kind of vessel that goes at high speed, those to me are 
new weapons. But to me it strikes me and my personal opinion 
that this is an upgrade of an existing weapon. Would you share 
that perspective?
    Ms. Gordon-Hagerty. Our perspective is that these are new 
and novel approaches. They are not something that we would ever 
undertake.
    Mr. Lamborn. You mean the Russians?
    Ms. Gordon-Hagerty. That the Russians are undertaking. That 
is not something that is even anything we are even considering. 
And we think that those do not help with stability--strategic 
stability talks.
    Mr. Lamborn. But the W93 is an upgrade of an existing----
    Ms. Gordon-Hagerty. Yes, sir. And it will not--at this 
time, we believe that, because it is based on previously tested 
designs, we will not need to test. There will be no explosive--
nuclear explosive testing required for this system.
    Mr. Lamborn. Thank you. I yield back.
    Mr. Cooper. I thank the gentleman. The honorary member was 
in danger of losing his honorary status there.
    The subcommittee will adjourn the public session and resume 
in 2337 as soon as we can get up there.
    [Whereupon, at 3:42 p.m., the subcommittee proceeded in 
closed session.]



      
=======================================================================




                            A P P E N D I X

                             March 3, 2020

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 3, 2020

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
      
 
    
  
    
                      <all>
</pre></body></html>
